TN

2311 Douglas Street CO eg KLE s E-Mail Address:

Omaha, Nebraska 68102-1214 ES. 1939 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 20-543; 20-544

STEVEN T. MNUCHIN, Secretary of the Treasury,
Petitioner,
v.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL...
Respondents:

ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,
. Petitioners,
ve.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.. *
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 3916 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

a: HOTANY.State of obra
4 f RENEE J.GOSS Konse. Q. Lose Onda he, Chk

Notary Public 7 Affiant

 

My Comm, Exp. Soptambar 5, 2025

 

40436
